             OFFICE OF INSPECTOR GENERAL
            CORPORATION FOR NATIONAL AND
                 COMMUNITY SERVICE




                           Audit of
                  Communities In Schools, Inc.
                  Grant Number 0 1SPHVA003


                   Audit Report Number 03- 16
                          April 2, 2003




                          Prepared by:

                   Office of Inspector General
         Corporation for National and Community Service
                     120 1 New York Avenue
                    Washington, D.C. 20525




This report was issued to Corporation management on April 25,2003.
                                                       Audit of
                                              Communities In Schools. Inc .
                                              Grant Number 0 1SPHVA003

                                                       Table of Contents



Executive Summary ............................................................................................................. 1

Background .......................................................................................................................... 1

Objectives, Scope, and Methodology .................................................................................. 2

Results .................................................................................................................................. 2
                                                                                      CORPORATION
                                                                                       FOR NATIONAL




April 2, 2003


Ms. Marilyn W. Smith, Ph.D.
Executive Director
Communities In Schools, Inc.
277 South Washington Street, Suite 2 10
Alexandria, VA 223 14

We performed a financial related audit of Corporation for National and Community
Service (the Corporation) funds awarded to Communities In Schools, Inc. The audit
included Grant No. 01SPHVA003, a legislative earmark grant. The audit's initial
objectives were to: (1) examine costs incurred and claimed to determine whether the
costs are allowable, adequately supported, and charged in accordance with the terms of
the grant and applicable laws and regulations; and (2) evaluate the internal controls over
financial reporting to determine if they are adequate to safeguard Federal funds. Because
these objectives were included by Grant Thornton under their A-133 audits, we limited
our effort to review the status of corrective actions for financial issues raised during the
Corporation's February 2002 site visit.

Executive Summary

The grantee informed us that they drew down $67,099.36 in excess of grant expenditures.
Communities In Schools, Inc. paid back both the excess funds and interest of $533 on
those funds to the Department of Health and Human Services-Payment Management
System. We consider this condition to be closed. There are two financial related items
from the Corporation's 2002 site visit remaining.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
the National and Community Service Act of 1990, established the Corporation.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State commissions, nonprofit entities and tribes and territories to assist in
the creation of full- and part-time national and community service programs. Through
these grantees, members and volunteers perform service to meet the educational, human,
environmental, and public safety needs throughout the Nation.



                                                                                  Inspector General
                                                                                  1201 New York Avenue, NW
                                                                                  Washington. DC 20525
The Corporation's appropriations legislation for fiscal year 2001, specified that not more
than $5,000,000 of the funds made available to the Corporation shall be made available to
Communities In Schools, Inc. to support dropout prevention activities. This earmark
award originally covered the period from December 1,2000 through November 30,2001.
The Corporation granted a no cost extension through May 31, 2002. On January 24,
2001, the Corporation amended the award to reflect a reduction of Federal funds due to a
.22 percent rescission mandated by Congress. Accordingly, the grant was reduced by
$1 1,000 to $4,989,000.

Objectives, Scope and Methodology

Our initial objectives were to examine costs incurred to determine whether the amounts
incurred and claimed were allowable under the grant agreement, its terms and conditions,
and applicable Federal laws and regulations. In the fiscal year 2001 A-133 audit, this
grant was identified and audited as a major program. The A-133 auditors noted no
matters involving noncompliance with laws, regulations or grant provisions to be
reported. The auditors also noted no matters involving noncompliance or internal control
over the major programs that it considered to be material weaknesses. We reviewed the
work performed by the outside auditors and chose to rely on it to avoid duplication of
effort. Therefore, we limited our testing to determine that the financial related issues
raised during the Corporation's February 2002 site visit were corrected.

We performed our audit in accordance with generally accepted Government Auditing
Standards issued by the Comptroller General of the United States. These standards
require that we plan and perform the audit to obtain reasonable assurance that the grant
funds were spent in accordance with program requirements.
An exit conference was held with Communities In Schools, Inc. on April 2, 2003. The
issues presented in this report were discussed.

Results

In our opinion, the following issues included in the February 2002 site visit report are still
open. This information is provided for informational purposes only and includes the
status of management actions to close these issues. Accordingly, no recommendations
are made or costs questioned calculated at this time.

1. Allocation of Costs Charged to the Grant

The site visit report noted that, "...the amounts charged to the grant, or the basis for
identifying and allocating costs to the federal grant are not clear." Management has
stated that they are working with their accounting firm, Outsource Partners International
Inc. to develop an indirect cost allocation method and submit it to the Department of
Health and Human Services for approval. They further stated that this process was
awaiting completion of the Fiscal Year 2002 A-133 Audit and finalization of the Fiscal
Year 2003 Federal Budget.
After the indirect rate and allocation method are submitted, additional audit effort may be
performed on the Communities In Schools, Inc.'s accounting system.

2. Use of Space

The site visit noted that the space at Communities In Schools, Inc. was underutilized. As
a result management did sublease the space for a one-year period (May 2002 through
April 2003), which, corrected the site visit condition. The tenant vacated the space in
January 2003 but paid for the space through April 2003. Therefore, as of May 1, 2003
the space might again be underutilized. Management has stated they are looking to lease
the excess space and may be close to signing a sublease agreement.

This report is intended solely for the information and use of the Office of Inspector
General, the Corporation's management, and Communities In Schools, Inc.




aB-Ue4
    ?we
J. Russell George
Inspector General
Corporation for National and Community Service
Washington, D.C.


Copy to:

Michelle Guillermin, Chief Financial Officer
Peg Rosenberry, Director, Office of Grants Management
Dana Rodgers, Program Officer
